HHS/OIG, Audit - "Audit of Medicare Part B Administrative Costs October
1, 2003, Through September 30, 2006 - Wisconsin Physicians Service Insurance
Corporation," (A-05-07-00060)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part B
Administrative Costs October 1, 2003, Through September 30, 2006 - Wisconsin
Physicians Service Insurance Corporation," (A-05-07-00060)
June 13, 2008
Complete
Text of Report is available in PDF format (2.76 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In its fiscal year (FY) 2004 through
2006 cost proposals, Wisconsin Physicians Service Insurance Corporation (WPS) reported expenditures that substantially complied with
the Federal Acquisition Regulations and the Medicare contract provisions.
However, WPS reported unallowable costs totaling $83,000
because it overstated costs for management and medical consulting services, executive compensation, postage, and entertainment.  Following the close of each
FY,
contractors submit to the Centers for Medicare and Medicaid Services (CMS) a Final Administrative Cost Proposal, which reports
the Medicare administrative costs incurred during the year.
We recommended that WPS
decrease its cost proposals by $63,000 for FY 2004, $6,000 for FY 2005, and
$14,000 for FY 2006 to reflect the unallowable costs.
In written comments on our draft report, WPS
agreed with our findings regarding medical consulting services, executive
compensation, postage, and entertainment costs and disagreed with our finding
regarding management consulting services costs. We took WPSs comments
into consideration and made appropriate changes to our report.
.